<html>
<title> - UNITED STATES SECRET SERVICE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                      UNITED STATES SECRET SERVICE

=======================================================================


                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                       
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 19, 2014

                               __________

                           Serial No. 113-118

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov
      

                                    ______

                      U.S. GOVERNMENT PRINTING OFFICE 

91-316 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUUL LABRADOR, Idaho                JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
        
        
                            C O N T E N T S

                              ----------                              

                           NOVEMBER 19, 2014

                                                                   Page

                           OPENING STATEMENT

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1

                                WITNESS

The Honorable Joseph P. Clancy, Acting Director, United States 
  Secret Service
  Oral Testimony.................................................     3
  Prepared Statement.............................................     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    32

 
                      UNITED STATES SECRET SERVICE

                              ----------                              


                      WEDNESDAY, NOVEMBER 19, 2014

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:10 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Coble, Chabot, Issa, 
Gohmert, Jordan, Poe, Chaffetz, Marino, Gowdy, Labrador, 
Farenthold, Holding, DeSantis, Conyers, Scott, Jackson Lee, 
Cohen, DelBene, Garcia, Jeffries and Cicilline.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Sarah Allen, Counsel; Brian Northcutt, Secret Service Detailee; 
Kelsey Deterding, Clerk; (Minority) Perry Apelbaum, Minority 
Staff Director & Chief Counsel; Danielle Brown, 
Parliamentarian; Joe Graupensperger, Counsel; and Veronica 
Eligan, Professional Staff Member.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order. And without objection, the Chair is authorized 
to declare recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on oversight 
of the United States Secret Service. Before we begin, I want to 
make Members aware that the first portion of our hearing is 
open to the public. There may be items which we cannot discuss 
in an open setting, because they fall into the category of 
being law enforcement sensitive information; therefore, after 
the Director has testified and we have concluded one round of 
questions, we will recess briefly to clear the hearing room. 
After that, Members and staff will be permitted to re-enter the 
room and we will convene the law enforcement sensitive portion 
of the hearing.
    Today we welcome Acting Director Clancy to a hearing to 
conduct oversight of the United States Secret Service. We very 
much appreciate you being here today, particularly given that 
you have only been on the job for a little over a month. You 
had an exemplary record of service as the head of the 
Presidential Protective Division, and we're grateful that you 
agreed to take the reigns of the Secret Service at this 
critical juncture.
    The Secret Service, created by President Lincoln in 1865, 
has a long and distinguished history. The agency has two 
primary missions: criminal investigations and protection of the 
President, Vice-President and other dignitaries. While 
protection is clearly the most visible of its two missions, I 
would be remiss not to mention that the Secret Service has 
recently had a number of significant investigative 
accomplishments, including approximately 6,700 arrests for 
financial and cyber crimes in fiscal year 2014 alone, which 
prevented more than $3 billion in losses.
    It is important to note that the Service has also had many 
successes implementing its protective mission. In fiscal year 
2014, the Service provided protection for 6,000 travel stops, 
including more than 2,500 visits by foreign dignitaries, and 
two national special security events.
    Secret Service is entrusted with protecting some of our 
most valuable assets, including the President, the First 
Family, and the White House. This is an extremely difficult, 
high-profile mission, for which there is no margin for error. 
Recent incidents give me great concern that the policies, 
procedures and training at the Secret Service are not entirely 
up to the task.
    Just after 7:15 p.m. on September 19, 2014, Omar Gonzalez 
was able to scale the White House fence, evade numerous Secret 
Service officers outside the White House and force his way 
through the unlocked front door, armed with a knife. Although 
it was initially reported to the public and Congress that 
Gonzalez was apprehended just inside the north portico doors, 
we have since learned that he actually made it all the way to 
the East Room of the White House before being tackled by Secret 
Service officers.
    The Department of Homeland Security's review of this event 
uncovered a laundry list of errors that evening, including 
communication systems that didn't work and that officers were 
not trained to use properly, a construction project along the 
White House fence that obscured officers' sight lines, unlocked 
front doors to the White House late on a Friday evening, and a 
canine officer who was on a personal cell call without his 
radio ear piece in his ear or his tactical radio at the time 
Gonzalez scaled the fence. This delayed the officer's response, 
meaning that the canine was not able to identify Gonzalez as 
the target.
    The report also discusses a number of training and staff 
issues as well as potential missed opportunities to stop 
Gonzalez in the months leading up to September 19.
    Today's hearing will take place in two parts: A public 
portion and a closed portion, in which we will drill further 
down into the deficiencies that have been revealed in the 
Secret Service's policies and procedures as well as any 
deficiencies with the physical security at the White House. In 
particular, I am interested in discussing how the Service 
intends to improve security at the White House when, as was 
true on September 19, the President or other protectees are not 
present.
    A month after Omar Gonzalez was able to enter the White 
House, another fence jumper was quickly apprehended by Secret 
Service officers, including the canine unit. It is my hope that 
this incident shows that the service has already implemented 
important reforms; however, the Gonzalez fence jumper is just 
one of many events in the past few years that call into 
question whether the U.S. Secret Service is doing all it can to 
fulfill its mission and prevent mistakes. Others include the 
Columbian prostitution scandal, the recent ability of a 
security guard with a criminal history to take a service weapon 
into an elevator with the President, and the incident in the 
Netherlands dealing with intoxicated Secret Service agents.
    Given the vital role the Secret Service plays in the 
security of the President and the White House, it is critical 
that Congress investigate the Service's response to recent 
incidents and work with the Service to make sure it fulfills 
its critical mission. This hearing is intended to do just that.
    And since the Ranking Member has not yet arrived, we will 
go ahead and swear in our only witness, and, again, welcome 
him.
    So, Acting Director Clancy, if you would raise your right 
hand and repeat after me.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Thank you very much.
    Let the record reflect that the Acting Director responded 
in the affirmative, and we welcome him.
    Joseph P. Clancy was designated as the Acting Director of 
the United States Secret Service on October 1, 2014, by 
Secretary of Homeland Security, Jeh Johnson. Prior to accepting 
the position of Acting Director, Mr. Clancy served as the 
executive director of cable security at Comcast Corporation. A 
27-year veteran of the Secret Service, Mr. Clancy's career 
there began in 1984 in the Philadelphia field office. Mr. 
Clancy was appointed special agent in charge of the 
Presidential Protective Division on February 1, 2009. Mr. 
Clancy held this position until his retirement from the Secret 
Service on June 30, 2011.
    Mr. Clancy attended the United States Military Academy at 
West Point and is a graduate of Villanova University with a 
Bachelor of Arts in political science and criminal justice. 
Prior to joining the Secret Service, Mr. Clancy worked as a 
high school teacher and football and baseball coach for the 
Philadelphia Archdiocese.
    Mr. Clancy, we appreciate your presence here today and we 
look forward to your testimony. Your written statement will be 
entered into the record in its entirety, and we ask that you 
summarize your testimony in 5 minutes or less. To help you stay 
within that, there's a timing light on your table. So welcome, 
Mr. Clancy.

         TESTIMONY OF THE HONORABLE JOSEPH P. CLANCY, 
         ACTING DIRECTOR, UNITED STATES SECRET SERVICE

    Mr. Clancy. Thank you, Mr. Chairman. Good morning, Chairman 
Goodlatte, Ranking Member Conyers, and distinguished Members of 
the Committee. Let me begin by recognizing the tremendous 
support this Committee has given the Secret Service over many 
years, and acknowledge your staff, both past and present, who 
worked with us on issues as varied as protection of former 
Presidents, to cyber crime targeting our Nation's banks and 
financial institutions.
    Forty-four days ago, I embarked on the greatest endeavor of 
my professional life: the privilege of leading the dedicated 
and self-sacrificing employees of the Secret Service through a 
challenging time in the agency's storied history. While 
returning to public service after beginning a second career in 
the private sector was not an easy decision, the call to 
restore operational excellence to the Secret Service was too 
urgent to ignore.
    I did not come here today expecting this hearing to be 
easy, but it is my hope that the next several hours will yield 
productive discussions about the state of the Secret Service.
    Without question, the agency has been severely damaged in 
recent years by failures ranging from disgraceful misconduct on 
the part of some employees to operational breakdowns that 
undermine the trust and confidence that previous generations 
worked so hard to establish.
    One of those operational breakdowns was the White House 
incursion on September 19 of this year. I understand the 
Committee was briefed last week on the Department's review of 
the incident. I read the report. I found the findings 
devastating. What hits the hardest is the range of shortcomings 
that ultimately allowed Omar Gonzalez to enter the White House 
practically unencumbered.
    Although I firmly believe the Secret Service is better than 
this incident, I openly acknowledge that a failure of this 
magnitude, especially in light of other recent incidents, 
requires immediate action and longer term reform.
    The Department found that the level of training for 
Uniformed Division officers likely contributed to Gonzalez's 
ability to breach the White House interior, and documented 
there was confusion regarding the various roles and 
responsibilities during a fence jumping incident.
    To address this issue, I will continue to oversee the 
integrated training for White House uniformed division officers 
and tactical teams that was initiated after the September 19 
incident. This training involves dynamic scenario-based 
exercises simulating breaches of the White House grounds. My 
goal is to ensure that 100 percent of all White House branch 
officers receive this training by the end of the calendar year.
    If someone does attempt to scale the White House fence, I 
want to ensure they are met with immediate and forceful 
resistance, but I also view the fence itself as a needed 
deterrent for would-be jumpers. The Secret Service has long 
held that prevention is the linchpin of effective security 
plans, which is why we are currently working with our partners 
in the National Park Service to look at potential changes that 
would assist in the detection and delay of any person 
attempting to scale the White House fence.
    Special agent and Uniformed Division staffing levels have 
direct impact on the Secret Service's ability to conduct 
regular in-service training. Thanks to additional funding 
provided by Congress, in fiscal year 2014, the Secret Service 
was able to hire a total of 238 new law enforcement positions, 
more than tripling the number of hired over the previous 2 
years combined. This fiscal year, we hope to surpass that 
number and continue our work to achieve staffing levels that 
are commensurate with mission requirements.
    However, I recognize that staffing challenges are not 
remedied overnight. As it stands now, the recruiting and 
onboard process takes approximately 12 months, with an 
additional 7 months of training for new agents and officers.
    While staffing concerns within the agency will take some 
time to resolve, I have taken immediate steps to improve the 
flow and quality of communication at all levels within the 
agency. An integral part of why I agreed to serve as Acting 
Director were troubling reports that some employees saw no 
option but to take their concerns to people outside the Secret 
Service rather than trusting their supervisors and the agency's 
leadership to confront difficult issues head on. That is 
unsustainable in any organization.
    While I have the utmost respect for the employee's right to 
report incidence of waste, fraud and abuse in a confidential 
manner without fear of reprisal, I also see an urgent need to 
reestablish what I view as one of the most basic tenets of a 
well-functioning workplace: trust your boss that he will stand 
up and do the right thing.
    One of the first actions I took since assuming this 
position was to foster better communication between the rank 
and file, their supervisors, and the agency's executive 
leadership. I conducted town hall style meetings with the 
Secret Service field offices around the country by video 
conference. I personally joined officers and agents at the 
White House complex during their daily roll call.
    In the event that employees are apprehensive about 
discussing their concerns with their supervisors, I instructed 
the Secret Service ombudsman to establish a mechanism of 
elevating employee concerns directly to the executive review 
board for resolution. I made clear the importance of full 
accountability and directed that I be present when actions are 
taken.
    The core values of the Secret Service, justice, duty, 
courage, honesty and loyalty, have guided the agency through 
many challenges over the course of its history. Now more than 
ever, it is critically important for us to recognize that in 
the midst of all the turmoil, there is exceptional work being 
carried out by thousands of Secret Service employees around the 
country and around the world who embody these core values.
    In my view, failure can be an integral part of success, 
whether that refers to an agency or to an individual. And we 
are confident we can fulfill our mission with honor and restore 
the Secret Service's rightful place as the most respected 
protection service in the world.
    Chairman Goodlatte and Ranking Member Conyers, this 
concludes my opening remarks. I look forward to a good 
discussion, and will be happy to answer your questions during 
both the open and closed portions of today's hearing as 
appropriate. Thank you.
    [The prepared statement of Mr. Clancy follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
                        __________
                               
    Mr. Goodlatte. Thank you, Mr. Clancy. The Ranking Member 
has not yet arrived. I will begin the questioning, and when he 
does arrive, we will recognize him for both his opening 
statement and questions.
    As you know, the officers who were present when Omar 
Gonzalez jumped the fence on September 19 believed that he was 
not armed and did not present a threat that would warrant the 
use of lethal force. It was ultimately discovered that he was, 
however, carrying a knife when he entered the White House.
    Can you explain the Service's policy for the use of lethal 
force? And given that Mr. Gonzalez did actually have a knife 
when he entered the White House, do you agree with the decision 
to withhold lethal force?
    Mr. Clancy. Yes, sir. DHS, Department of Homeland Security, 
and the Secret Service have a very clear policy on the use of 
deadly force. Basically what it states is that an officer, when 
it's necessary, is authorized to use deadly force if the 
individual poses an immediate danger of death or serious bodily 
injury to the officer, the agent or to someone else.
    Mr. Goodlatte. And what non-lethal options does an officer 
have to subdue or stop a fence jumper?
    Mr. Clancy. Sir, officers, in addition to their weapon, 
they have batons, they have CS spray, more or less the pepper 
spray, and obviously they're trained to use their hands as well 
to transition to that mode.
    Mr. Goodlatte. Now, are you looking into other options?
    Mr. Clancy. Sir, we're always looking at other options that 
are available. We have close consultation with other agencies 
and we share information. So we're always evaluating the 
equipment that we have for our officers and agents.
    Mr. Goodlatte. Concern has been raised that there's an 
overreliance on the dogs, on the canines that may have impeded 
the Service's ability to stop Gonzalez on September 19. Could 
you comment on that?
    Mr. Clancy. Sir, the canine are obviously a very important 
asset that we have on the north and south grounds of the White 
House complex. It is one option of several that officers can 
use in the event of a fence jumper. It's a decision that the 
officers have to make depending on circumstances whether to use 
the canine, but previous jumpers have been confronted with--our 
officers have used their hands, have used their baton, they've 
used other equipment to stop these fence jumpers.
    Mr. Goodlatte. Thank you. I want to give you an opportunity 
to discuss an incident that occurred back in 2011. It's been 
reported that there was a period of initial confusion about 
whether gunshots had been fired toward the White House on 
November 11, 2011, and that officers were told to stand down. 
Can you comment on what the Service did that evening and the 
days following to investigate that shooting, and did the 
Service realize or did it not realize that anything was wrong 
until the bullets were found on the side of the White House 
several days later?
    Mr. Clancy. Yes, sir. Thank you. As I've been briefed, when 
we were aware of shots being fired, initially there was a 
report over the radio that there was a stand-down order, but 
that was quickly overridden. Our officers responded 
appropriately. They went to their defensive positions at the 
White House complex, because they did hear some noise that 
sounded similar to gunshots. We continued to try to identify 
where those noises came from, we knew there was construction 
down on Constitution Avenue, but we immediately, within 2 
minutes, notified the Park Police of the sounds down by 
Constitution Avenue.
    Within 5 minutes, we located the vehicle that Ortega was 
driving. Within 30 minutes, I believe, we built an incident 
command center on Constitution Avenue. And then we continued to 
stay with the course of the investigation for the next several 
days.
    Mr. Goodlatte. And how quickly was there a warrant for the 
arrest of the suspect in that case?
    Mr. Clancy. How many days, sir? As I've been briefed, we 
identified Mr. Ortega that day as the owner of the vehicle. And 
then through the process of an investigation through our 
Pittsburgh field office, we were able to identify where he was 
located, and I believe November 15th, a warrant was served on 
him in the state of Pennsylvania.
    Mr. Goodlatte. So within a few days?
    Mr. Clancy. Yes, sir.
    Mr. Goodlatte. Not one day of the event?
    Mr. Clancy. Yes, sir.
    Mr. Goodlatte. With regard to the elevator incident in 
Atlanta on September 16th of this year, what steps has the 
Service taken to review and revise its policies and procedures 
for handling third-party security contractors?
    Mr. Clancy. Yes, sir. Needless to say, sir, that was a 
break in our procedures. We did not follow procedures in our 
advance of that visit at the CDC. We have done an investigation 
on that, and in general, only sworn law enforcement officials 
should be in close proximity to the President, who are armed. 
In this case, we did not follow the proper procedures.
    It's not a matter of necessarily changing policies, but 
more of an indication that we need to do better training and 
reshape some of the training that we're doing with our folks on 
the protection details.
    Mr. Goodlatte. And on that, what is your policy for 
determining when third parties may be armed while in the 
proximity of the President or another protected individual? How 
do you go about determining that?
    Mr. Clancy. Sir, the advance agenct will ask first if 
there's local security at the site, is anyone armed? And then 
needless to say, we also do records checks on anyone who's 
going to be in close proximity of the President.
    In this case, again, we failed our procedures in allowing 
this gentleman to operate the elevator armed.
    Mr. Goodlatte. Thank you very much. My time's expired, and 
I will now recognize the Ranking Member of the Crime 
Subcommittee, the gentleman from Virginia, Mr. Scott, for his 
questions.
    Mr. Scott. Thank you. Director Clancy, thank you for being 
here.
    Mr. Clancy. Yes, sir.
    Mr. Scott. One of the problems we have around here 
frequently is that when we do budgets, we don't think tax cuts 
affect the budget and that budget cuts don't affect your 
ability to provide services. Can you describe a little bit 
about the budget ups and downs over the last 3 or 4 years?
    Mr. Clancy. Yes, sir. When I came back to the Secret 
Service and accepted this position, I identified three main 
areas of concern: one was staffing, one was training, and 
obviously the morale as well.
    Staffing is a complicated issue. Back in 2011, we were at a 
high point with our staffing. We had appropriately 7,024 
security personnel back in 2011. In 2012 and 2013, we had a 
severe drop-off and there were some uncertain times from a 
budget standpoint, and also we realized, from what I 
understand, is that that 7,024 number was unsustainable. We 
were not able to year after year, continue meet our pay of 
those employees, so our numbers dropped down.
    Now, in 2014, the year 2014----
    Mr. Scott. Excuse me, Director. Did you need 7,024 people?
    Mr. Clancy. Yes, sir.
    Mr. Scott. Okay. Keep going.
    Mr. Clancy. So in 2014, with the help of Congress, we were 
able to hire 238 new security professionals, which was a good 
help to us, but we were starting from scratch after not hiring 
very few people in 2012 and 2013. So we're starting to work our 
way back up, and needless to say, in 2015, that's a priority. 
Right now we've got scheduled six classes of uniformed officers 
and six classes of special agents prepared to go through 
training this year.
    Mr. Scott. Now, you are understaffed. What does that do to 
people's vacation time and overtime?
    Mr. Clancy. Yes, sir. It affects their vacation time, it 
affects overtime drastically. Our Uniformed Division works 
extremely hard, but very often they get their days cancelled or 
they have to extend their workday, and that has a severe effect 
on their morale and obviously has an effect on training, which 
is something we're going to correct moving forward.
    Mr. Scott. When you're understaffed, can you explain what 
happens to training?
    Mr. Clancy. Yes, sir. When we are understaffed, it's 
difficult to get people out to their training assignments, 
because of the operational needs of the Service. So one of the 
things we've done to alleviate that in the short term is we've 
brought agents in from the field, to take some of these 
positions that Uniformed Division has at the White House 
complex so that we can get people out to training.
    Mr. Scott. What happens when people are not properly 
trained?
    Mr. Clancy. When we're not properly trained, sir, we fail.
    Mr. Scott. Now, we have coming up next year another round 
of sequester, a 10 percent across-the-board cut. What will that 
do to your staffing, morale and training?
    Mr. Clancy. Sir, that would have an effect on our staff and 
on our training and on our morale. We will continue to do our 
very best to fulfill the needs, and we will meet the needs of 
the protection of the White House, the first family, we'll do 
whatever we need to do to make sure we meet those requirements.
    Mr. Scott. Well, if you meet those requirements, then 
something's got to give. What priorities will not be met if you 
need to transfer people onto the White House security?
    Mr. Clancy. Sir, sometimes we do have to reach out to our 
field offices, who are doing a tremendous job, as the Chairman 
had mentioned in his opening remarks. We take some of those 
agents to support us in the protective mode.
    Mr. Scott. Do you know if the transfer from Treasury to 
Homeland Security had any effect on your ability to perform 
your mission?
    Mr. Clancy. Sir, I don't think I'm one to evaluate. I was a 
young manager when we were in the Treasury Department. 
Certainly I've had good exposure and experience with the 
Department of Homeland Security, and we've used them. As I've 
been briefed, for the most recent United Nations, we used our 
other components within the Department of Homeland Security to 
assist us in that United Nations security plan. We used their 
HSI investigators to help us with post standing, we used their 
TSA agents to assist us with magnetometers, we used the Coast 
Guard to assist us with our water, sea support and air support. 
So we were able to use the components of the Department of 
Homeland Security to assist us in a very critical mission.
    Mr. Scott. Just for the record, when the fence jumper 
incident occurred, where was the President and the First 
Family?
    Mr. Clancy. Sir, when the fence jumper on September 19 
occurred, the President had just left for Camp David and the 
First Lady was out of the residence as well.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentleman from North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Clancy, good to have you with us this morning.
    Mr. Clancy. Thank you, sir.
    Mr. Coble. Mr. Clancy, if I were going to pursue an 
activity to direct attention to me, I believe I would find some 
exercise other than volunteering as a fence jumper at the White 
House, but that's me, but maybe I'm in the minority on that 
roll.
    Mr. Clancy. Yes, sir.
    Mr. Coble. But it's been reported that the Service had 
multiple contacts with Gonzalez prior to the September 19 
incident. Will any review of that event include a review of how 
information regarding the suspect prior to that date was 
handled, including information gathered by the Secret Service 
investigators following Gonzalez's arrest on July 19, 2014?
    Mr. Clancy. Yes, sir. That's correct, sir. And do you want 
me to explain a little bit what happened during that?
    Mr. Coble. If you would do that.
    Mr. Clancy. Yes, sir. During that time, sir, when Mr. 
Gonzalez was arrested down in Virginia, our Roanoke office was 
advised of the arrest. There was consultation between the local 
authorities and our agents, and at that time, our agents did 
not interview Mr. Gonzalez. Subsequent to that, when Mr. 
Gonzalez posted bond, our agents did interview Mr. Gonzalez. 
And we were aware of the weapons that he had in his vehicle, we 
were also aware of the map that he had in his possession.
    This is one of the most difficult decisions an agent has to 
make, make an assessment of someone that they're interviewing 
with whether or not that individual has the potential or the 
motive to do harm to any of our protectees. And during that 
interview, Mr. Gonzalez did not exhibit any of those 
characteristics. He did not indicate in any way that he wanted 
to harm any of our protectees, or indicate in any way that he 
wanted to harm any of our protectees or the President.
    Subsequent to that, he did come to the White House, outside 
the White House perimeter. And as he was walking around the 
perimeter, one of our uniformed officers noticed he was a 
little suspicious the way he was walking and there was a bulge 
in the back of his jacket, as I've been briefed here. And the 
officer approached him and noticed that he had a hatchet in the 
back of his pants, as I was briefed.
    The hatchet, my understanding is, in D.C. is not in 
violation of the law if it's considered to be used for camping-
type activities, and that's what this individual indicated he 
had the hatchet for. The individual also gave a consent search 
of his vehicle. So he was very cooperative during the 
interview. When they searched his vehicle, there were no 
weapons found in the vehicle. There were other hatchets, there 
was other camping equipment again, to his story that he was 
involved in camping activities. So again, he was released from 
the interview.
    Then subsequently on September 19, he did return to the 
White House. And, again, three of the officers who were 
familiar with the hatchet interview recognized him.
    And to be candid, one of the things we've addressed since 
that incident is that we've got to do a better job of 
communicating. Those officers who saw Mr. Gonzalez walking on 
the perimeter of the White House did not do a good enough job 
of communicating to everyone, including our joint operations 
center, that he was in the vicinity again.
    Mr. Coble. Thank you, Mr. Clancy. Let me put another 
question to you before that red light illuminates.
    Mr. Clancy. Yes, sir.
    Mr. Coble. Do you intend to review the White House's 
physical infrastructure for security risks? Is it solely within 
the discretion of the Service to update the physical security 
systems in place within the White House and surrounding 
grounds, and which other agencies or offices, if any, must 
approve any recommended improvements?
    Mr. Clancy. Yes, sir. That's a good question. Thank you, 
sir. And we are constantly evaluating all of the security 
measures at the White House complex. In fact, the very first 
week, I walked the perimeter of the White House as well as the 
interior of the White House and looked at the security measures 
we had in place.
    Now, any adjustments we want to make, just as an example, 
the fence, we have to work with our partners, and we're happy 
to do that, and we've gotten very good cooperation with our 
partners, to include the National Capital Planning Commission, 
the Fine Arts Commission, the National Park Service, and we 
work with those agencies on the perimeter of the White House 
for any adjustments we want to make.
    Mr. Coble. I thank you for that, sir.
    Mr. Clancy. Yes, sir. Thank you, sir.
    Mr. Coble. Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentleman from Tennessee, Mr. Cohen, for his 
questions.
    Mr. Cohen. Thank you, Mr. Chairman. And it's a great honor 
to follow the gentleman from North Carolina, who has served 
this Committee so ably for so many years and been a friend to 
me, and I appreciate that.
    Mr. Coble. Thank you, Mr. Cohen.
    Mr. Cohen. Thank you.
    The White House protection, does the Secret Service 
protection begin on the inside of the fence or does the Secret 
Service have personnel on the outside of the fence on 16th?
    Mr. Clancy. Sir, we have a presence on the outside 
perimeter as well, yes, sir.
    Mr. Cohen. Do the D.C. Police normally also provide some 
type of perimeter screening?
    Mr. Clancy. Sir, D.C. Police is also on the outside, but 
the actual perimeter of the protection of the White House 
complex would be the responsibility of the Secret Service, and 
we do have people with several different job descriptions on 
the perimeter of the White House.
    Mr. Cohen. On the day in question of September 19, 2014, 
how many agents were on the 16th Street side, that's opposite 
Andy Jackson, Lafayette Square, how many folks were on the 
street beyond the White House perimeter?
    Mr. Clancy. Yes, sir. Sir, typically we would have on the 
street two Uniformed Division officers, but we also have some 
countersurveillance units that could be in that area by 
Lafayette Park. We also have posts that are right inside the 
gate.
    Mr. Cohen. But on the outside----
    Mr. Clancy. On the outside, yes.
    Mr. Cohen [continuing]. You have just a couple.
    Mr. Clancy. Yes.
    Mr. Cohen. None of them saw this man jump the fence?
    Mr. Clancy. Sir, they saw him prepping to jump the fence. 
And by that, they can usually see the body language of 
individuals who--as you know, so many pedestrians come up to 
the fence, but our officers and other security folks, they 
recognize when someone is starting to maybe prep to climb the 
fence. And they started to move in that direction, and as he 
started to make a move for the fence, they shouted verbal 
commands, sprinted to Mr. Gonzalez, and they were about an 
arm's length or two arm's lengths short of reaching him.
    Mr. Cohen. And then what did they do then? Did they jump 
over the fence too, or were they incapable of doing that?
    Mr. Clancy. No, sir. Protocol there, sir, is first to get 
on the radio. And one of the officers did get on the radio to 
announce a fence jumper. Then their next role is to clear the 
fence line of all the guests and all the tourists that are on 
Pennsylvania Avenue. And once that individual, in this case, 
Gonzalez, had climbed over the fence, now it's the 
responsibility primarily of our emergency response team and our 
other officers that are inside the fence.
    Mr. Cohen. And it's easy to second-guess. I mean, you know, 
I do it every Saturday in watching football, but nevertheless, 
doesn't it seem like that they should have tried and been able 
to leap the fence and chased him from behind, and not just done 
what you said, to become a radio communication and clear other 
folks? They didn't try to apprehend the person other than yell?
    Mr. Clancy. No, sir. Everyone has a specific position to 
hold when an event like that happens, and one of the reasons is 
because of the canine. One of the tools that we have, it can 
affect how the canine react to that individual.
    But I will say that as a result of September 19, if you go 
by the White House, you'll see that we have a bike rack there 
now, which we know is not going prevent someone from jumping 
the fence, but it's going to allow us to have a little more 
time to react to someone who may have designs on climbing the 
fence, so that's been helpful.
    Mr. Cohen. Is that the only area we've had any history of 
people trying to enter the White House from the outside?
    Mr. Clancy. No, sir. We've had people jump the fence on 
other parts of our perimeter. I will say that the north grounds 
is more prominent in our people jumping, yes.
    Mr. Cohen. Would a moat----
    Mr. Clancy. Moat?
    Mr. Cohen. Water----
    Mr. Clancy. Yeah.
    Mr. Cohen [continuing]. Six feet----
    Mr. Clancy. Yeah.
    Mr. Cohen [continuing]. Around be kind of attractive and 
effective?
    Mr. Clancy. Yeah. Sir, it may be. One of the things we 
balance is obviously the accessibility of the White House. We 
recognize the historic nature of the White House and how the 
American people should have access to the White House. So we 
are now in the process of working with our partners at the 
National Park Services to see if we can do something with the 
fence. That's our first step, see if we can do something that 
would still be appeasing to the eye and keep the historical 
nature of the White House.
    Mr. Cohen. Like a higher fence.
    Mr. Clancy. Maybe a higher fence, sir, or maybe some other 
design.
    Mr. Cohen. Because this guy got further in the White House 
than some of my Republican colleagues have ever gotten.
    Mr. Clancy. Yes, sir. Yes, sir. But you're right, sir. A 
higher fence would certainly help us, and we're looking for 
ways and options. In fact, we hope within the next few months 
to have some renderings, some drawings of some options for 
people to look at.
    Mr. Cohen. And the incident of November 11, there's hardly 
anything we can do about somebody from a great distance with a 
rifle, is there?
    Mr. Clancy. Well, it's very challenging. Yes, sir, you're 
right. But what we have done as a result of that is we've 
pushed out our perimeter a little bit further out to 
Constitution Avenue to monitor that area as well.
    Mr. Cohen. I yield back the balance of my time.
    Mr. Clancy. Thank you, sir.
    Mr. Goodlatte. Thank you. The Chair thanks the gentleman, 
and recognizes the gentleman from Texas, Mr. Poe, for 5 
minutes.
    Mr. Poe. Thank the Chairman.
    Thank you for being here. I have a great admiration for the 
Secret Service. Back in the days when I was a judge in Texas, I 
had agents bring cases. They were well-prepared and they did 
very well, and well received by juries, and I think that's 
still the case today.
    Mr. Clancy. Thank you, sir.
    Mr. Poe. The Secret Service does a lot of things.
    Mr. Clancy. Yes, sir.
    Mr. Poe. Is your number one priority protecting the 
President and the President's family?
    Mr. Clancy. Yes, sir, absolutely.
    Mr. Poe. So that's number one?
    Mr. Clancy. Yes, sir.
    Mr. Poe. And everything else is below there and you're in 
charge of all that?
    Mr. Clancy. Absolutely, yes, sir.
    Mr. Poe. All right. I believe that the United States, 
because of who we are, it's really neat that the people can go 
to the White House where the President lives.
    Mr. Clancy. Yes, sir.
    Mr. Poe. You can't do that in any other countries----
    Mr. Clancy. No, sir.
    Mr. Poe [continuing]. Whether it's western countries or 
third world countries, you can't go see who's in charge, you 
can't go to their house.
    Mr. Clancy. No, sir.
    Mr. Poe. And we get to do that, American citizens get to do 
that.
    Mr. Clancy. Yes, sir.
    Mr. Poe. I think that's a good thing.
    Let's go back to the fence jumpers.
    Mr. Clancy. Yes, sir.
    Mr. Poe. There have been 16 fence jumpers of recent years. 
Is that correct?
    Mr. Clancy. Yes, sir. And in October 22nd, I think add one 
to that. I believe it's----
    Mr. Poe. 17.
    Mr. Clancy. Yes, sir.
    Mr. Poe. All right. Jumping the fence, going onto the White 
House grounds without permission, and I guess that would 
include Republicans as well going out permission, is a Federal 
offense, correct?
    Mr. Clancy. Yes, sir.
    Mr. Poe. Of those 16, leave out Gonzalez, what happened to 
those 16 other fence jumpers?
    Mr. Clancy. Sir----
    Mr. Poe. Were they prosecuted? Were they told not to do it 
again? Were they released at the time? What happened to those 
16 fence jumpers who presumably violated Federal law by jumping 
the White House fence?
    Mr. Clancy. Sir, I know charges were filed. I'll have to 
get back to you with how that played out in court, sir. I don't 
have those figures in front of me.
    Mr. Poe. I would appreciate it if you would take each one 
of those cases, date and whether they were prosecuted and then 
the results of the prosecutions.
    Mr. Clancy. Yes, sir.
    Mr. Poe. And send that to the Chairman of the Committee, 
who will share it with the rest of us.
    Mr. Clancy. Yes, sir. We'll do, sir.
    Mr. Poe. But that is the priority of the Secret Service, is 
protecting the President?
    Mr. Clancy. It is, sir.
    Mr. Poe. It seems to me that the Secret Service cannot make 
a mistake. This is one area where you're protecting the 
President, the President's family, there can't be mistakes; and 
if there are mistakes, but for some other intervening reason, 
bad things are going to happen. I believe that that makes your 
job, I mean, as you know and the Secret Service knows, very 
serious and very important. There could be no mistakes ever. 
You cannot do a redo if there is a mistake of security of the 
President and the President's family.
    At the White House, it's not just the Secret Service that 
is there. There's also the White House police. Is that correct?
    Mr. Clancy. Sir, there's a Uniformed Division branch of the 
Secret Service that protects the White House facility.
    Mr. Poe. So they're still Secret Service?
    Mr. Clancy. They're Secret Service, yes.
    Mr. Poe. They're not White House police?
    Mr. Clancy. Years ago they were called White House Police, 
many years ago, yes, sir, but now it's Uniformed Division----
    Mr. Poe. Okay.
    Mr. Clancy [continuing]. Of the Secret Service.
    Mr. Poe. So it's all Secret Service?
    Mr. Clancy. It is, yes, sir.
    Mr. Poe. Are there protocols when people jump the fence, 16 
people jump the fence, to make sure that the President and the 
President's family, if that's the ultimate goal of fence jumper 
to get to them----
    Mr. Clancy. Yes, sir.
    Mr. Poe [continuing]. That will not happen?
    Mr. Clancy. Yes, sir. And obviously on September 19, we 
failed in the execution of that security plan, but we do have 
very specific assignments, responsibilities of all of our 
tactical units as well as our officers at the White House 
complex.
    Mr. Poe. All right.
    Mr. Clancy. And they've been successful in all cases other 
than----
    Mr. Poe. Okay. I've got a couple more questions, because I 
have a minute left.
    Mr. Clancy. Yes, sir.
    Mr. Poe. You're not trying to say, though, this event 
occurred because of so-called budget problems, are you?
    Mr. Clancy. No, sir. This is no excuse. It's solely----
    Mr. Poe. It has nothing to do with the budget, because 
that's your number one priority, is protecting the President. 
All the other things the Secret Service do and do well is 
secondary?
    Mr. Clancy. Yes, sir, that's correct.
    Mr. Poe. Colombia. How many agents were involved in the 
scandal in Colombia?
    Mr. Clancy. Sir, as you know, I was not assigned at that 
time----
    Mr. Poe. I know you weren't.
    Mr. Clancy [continuing]. But my understanding is----
    Mr. Poe. I know you weren't in charge. Do you know how many 
agents were involved?
    Mr. Clancy. There were 13, is my understanding, sir, and I 
believe 10 are no longer with us.
    Mr. Poe. Y'all fired 10 of them or let them retire or----
    Mr. Clancy. Yes, sir. There----
    Mr. Poe [continuing]. Some----
    Mr. Clancy. A mix. Yes, sir.
    Mr. Poe. Something like that. All right. I thank you for 
your help today, and good luck to you.
    Thank you, Mr. Chairman.
    Mr. Clancy. Thank you, sir.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentlewoman from Washington, Ms. DelBene.
    Ms. DelBene. Thank you, Mr. Chair. And thank you, Director 
Clancy, for being with us today.
    Mr. Clancy. Thank you.
    Ms. DelBene. I wanted to ask you regarding the September 19 
incident in particular, can you explain further the radio 
communications challenges that were experienced? There were 
several officers who were unable to hear ``any comprehensible 
radio communications'' to notify them of the fence jumper 
leading to, for example, a delay in deploying the canine unit.
    So is it concerning to learn that some officers experienced 
unclear and muffled radio communications about the alarm break, 
and can you talk about what might have caused these 
communications challenges, whether it was people didn't know 
how to operate the equipment properly or whether there was 
actually problems with the communications infrastructure, the 
underlying infrastructure?
    Mr. Clancy. Yes. Thank you. We are very concerned with the 
radio communication. For us to execute our security plan, we've 
got to have good communication, and that night we did not have 
the communication we should have had. I did read the report by 
the deputy security of homeland, Deputy Mayorkas, and he 
highlighted that as one of our failings, the communication on 
that evening.
    We immediately went out and checked all the radios at the 
White House complex as well as our Joint Operations Center, and 
we did discover some areas at the Joint Operations Center 
that--the commander at the Joint Operations Center, when he put 
out word that there was a fence jumper, he was under the 
impression that his communication would override all the 
handheld radios, and it did not, but we have now since gone 
back and we've corrected that, so when the Joint Operations 
Center has to get a message out, that will override any 
handheld radio communication.
    There was also some reports of the muffling of radio 
communication. Sometimes that's in the heat of battle. People 
have to slow down, use radio discipline and explain exactly 
what happened. But subsequent to that event, we also did a 
review of any dead spots, were there any dead spots for radio 
communication at the complex, and we found that there are no 
dead spots, but the command post was one area that we had to 
correct, and that has been corrected.
    Ms. DelBene. And given communication is obviously critical 
to deploying resources around in a situation like this, the 
report recently issued by DHS suggests that aging 
infrastructure may have contributed as well. So are there 
specific resources that might be preventing you from doing the 
best job you can? Is there modernization to the infrastructure 
that's going to be important? And can you give me any feedback 
on what you think would be more helpful in terms of the tools 
that are available to your officers?
    Mr. Clancy. Yes, ma'am. I'm sorry. As I've been briefed, 
that is a main concern. Some of our equipment is aging, and 
that's one of the areas that we are looking at to try to 
enhance our radio communications. It's outdated, some of it. 
It's still operational, we can certainly fulfill our mission, 
but we are always looking to improve the assets that we have.
    Ms. DelBene. And do you know specifically what it is that 
you would prefer to have or what would be helpful?
    Mr. Clancy. I don't have specifically--I think it's a 
little more technical than I have facts today, but we'll 
provide a report for you.
    Ms. DelBene. Thank you. Thank you. I appreciate it.
    I think I'll yield back my time. Thank you, Mr. Chair.
    Mr. Clancy. Thank you, ma'am.
    Ms. DelBene. Thank you.
    Mr. Goodlatte. The Chair thanks the gentlewoman, and is 
pleased to recognize the gentleman from Utah, Mr. Chaffetz, and 
also to congratulate him on his new assignment in the new 
Congress as Chairman of the House Oversight and Government 
Reform Committee. The gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. I thank the Chairman.
    And, Director, I thank you for being here. The President 
made an exceptional choice by putting you in this position in a 
difficult situation, and I appreciate your service to this 
country and your taking on this role.
    You have an internal code of conduct. My understanding is 
that Offense Code 2.4 deals with false and misleading 
information. Do you expect every person in the Secret Service 
to live under this code?
    Mr. Clancy. We do, yes, sir.
    Mr. Chaffetz. There's no exceptions as to who should or 
should not live under this code about providing false 
information and the penalties therein?
    Mr. Clancy. That's correct, sir, no exceptions.
    Mr. Chaffetz. And my understanding is that if it is found 
that you're providing misinformation, that would lead anywhere 
between a range of 5-day suspension to removal. Correct?
    Mr. Clancy. Yes, sir.
    Mr. Chaffetz. Secret Service put out a statement on 
September 20th, 2014, after the fence jumping incident where 
they said, ``physically apprehended after entering the White 
House north portico doors.''
    Is that true or not true?
    Mr. Clancy. That is not true, sir.
    Mr. Chaffetz. It was further said that, according to Mr. 
Donovan in an Associated Press article that was posted on 
September 20, 2014, at 1:24 a.m. Eastern Daylight Time, Donovan 
said the--Ed Donovan, what's his role for the Secret Service?
    Mr. Clancy. Sir, he's our public affairs office.
    Mr. Chaffetz. Donovan said the man appeared unarmed to 
officers, who spotted him climbing a fence, and a search of the 
suspect turned up no weapons.
    Is that true or not true?
    Mr. Clancy. Sir, it's not true. Can I elaborate on that, 
sir, or--I'm sorry.
    Mr. Chaffetz. Let me keep going.
    Mr. Clancy. Yes, sir.
    Mr. Chaffetz. How quickly after he was apprehended did you 
find the weapon on the suspect that had entered the White 
House?
    Mr. Clancy. Sir, within minutes, I would have to assume, 
sir.
    Mr. Chaffetz. And somehow Mr. Donovan evidently claimed 
that the suspect turned up no weapon. This is then posted on 
the Associated Press. Was there ever a correction given to 
the--posted on the Secret Service Web site or given to the 
media that this was inaccurate?
    Mr. Clancy. Sir, I don't know the answer.
    Mr. Chaffetz. So they just let that linger out there in 
perpetuity. Let me go on.
    Operation Moonlight, Mr. Donovan is quoted as saying, 
``because there were no protective assets used during these 
checks, there was no impact on protective operations.''
    Do you believe that to be true or not true?
    Mr. Clancy. Sir, from the inspector general's report, 
everyone interviewed indicated it did not affect the protection 
of the President.
    Mr. Chaffetz. So you have a prowler unit that's outside the 
White House, you have the President of the United States in the 
White House----
    Mr. Clancy. Yes, sir.
    Mr. Chaffetz [continuing]. And you don't believe that 
there's trouble by taking those protective assets and moving 
them close to an hour away from the President himself?
    Mr. Clancy. Sir, I've read the inspector general's report, 
and we respect his report, and we agree with the report that 
there was poor judgment in sending the prowler unit that 
distance in this case.
    Mr. Chaffetz. Well, the inspector general came to the 
conclusion that the prowler unit would have been unable to 
respond if there was an incident at the White House.
    Mr. Clancy. That particular prowler unit, yes, that's 
correct, sir. Any agent that is----
    Mr. Chaffetz. So did the President have more or less assets 
around him from the Secret Service by moving the prowler unit 
away? He had less, right?
    Mr. Clancy. He did not have that unit, yes, sir.
    Mr. Chaffetz. So there was less protection for the 
President as opposed to more protection for the President, 
correct?
    Mr. Clancy. Well, the prowler unit is a reactive unit. It's 
not a protective unit.
    Mr. Chaffetz. We don't know if there's going to be an 
incident on the President. And when you take a prowler unit, 
how do you come to the conclusion that the prowler unit had no 
effect on the President's security? You were lucky there was no 
incident, but what if there was a an incident?
    Mr. Clancy. Sir, I'd have to define what the prowler unit 
does here. We have agents who are assigned to our Washington 
field office, and when they are called to the White House to do 
an interview----
    Mr. Chaffetz. But--sorry.
    Mr. Clancy. Yes, sir.
    Mr. Chaffetz. I have the yellow light on. I need to ask the 
core question here. We've cited at least two, I believe three 
incidents, where the public was misled, there was false 
information given, it was not correct.
    Was there any disciplinary action, and who's involved in 
that chain of command to review what the Secret Services say? 
Because as a Member of Congress, as a United States citizen, 
the Secret Service misled us on purpose. Was there any 
consequence to any personnel? Did you follow the code and did 
you actually suspend or remove people from their service? Was 
there any penalty or consequence for providing false 
information?
    Mr. Clancy. Sir, I agree with you that you, and I have the 
same outrage that you have regarding the communication----
    Mr. Chaffetz. But I want to know what you did about it.
    Mr. Clancy. Sir, we've got to do a much better job of 
communicating within the internal----
    Mr. Chaffetz. No. I want to know if there's any 
consequence. Did anybody face disciplinary action? You have a 
major morale problem, and this is why. There doesn't seem to be 
a consequence to doing something that's in obvious violation of 
your own internal codes.
    Mr. Clancy. Sir, this was not an intentional violation of 
the code. We just haven't communicated as well as we should
    Mr. Chaffetz. They just made a mistake, an innocent 
mistake? Was there any consequence?
    Mr. Clancy. No. There was no discipline administered in 
those examples that you gave, sir.
    Mr. Chaffetz. With all due respect, and my----
    Mr. Clancy. Yes, sir.
    Mr. Chaffetz [continuing]. Time has expired----
    Mr. Clancy. Yes, sir.
    Mr. Chaffetz [continuing]. Until you actually live by your 
own codes and you hold people responsible and accountable, 
you're going to continue to have this problem. That's just my 
own personal view of it from afar, but there have be 
consequences when people purposely and knowingly mislead the 
public, the press and consequently the Congress.
    Mr. Clancy. With respect, sir, again, from what I've heard, 
been briefed, and what I've seen, I would not say it was 
intentional. There is a difference between misconduct, sir, I 
think, and operational errors, and I think there is a very 
clear distinction.
    Mr. Chaffetz. Did you not know immediately that he was 
apprehended at the doors or was he apprehended deep in the 
White House?
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Clancy. Yes, sir.
    Mr. Goodlatte. Mr. Clancy will be permitted to answer the 
question. You can answer that question.
    Mr. Clancy. Yes, sir. Again, how that information was 
relayed, again, not being there, I don't know how that 
information was relayed to our public affairs office, but 
needless to say, it wasn't relayed in the proper manner and we 
gave bad information, and it's something that we cannot do. 
We've got to slow down a little bit with our communication, 
because we know it's critical to give accurate information, and 
that's what our goal is, but we failed on that day. I agree 
with you, sir.
    Mr. Goodlatte. The gentleman from New York, Mr. Jeffries, 
is recognized for 5 minutes for his questions.
    Mr. Jeffries. Thank you, Mr. Chair.
    And thank you, Mr. Clancy, for your service to this 
country, to the Secret Service and for your presence here 
today. It's my understanding that the number of threats to this 
particular President, Barack Obama, and the White House has 
increased significantly since the President first took office 
in January of 2009. Is that correct?
    Mr. Clancy. No, sir. I'd say there are spikes, sir, 
depending on world events. We've noticed over time that threats 
rise and they lower depending on the world events.
    Mr. Jeffries. And so how would you characterize, from a 
comparative standpoint, the number of threats that this White 
House or this President has faced as compared to modern 
Presidents over the last 20 or so years?
    Mr. Clancy. Yes, sir. Our protective intelligence 
department does metrics regarding just what you're referring to 
here and we do compare it to previous Administrations, previous 
Presidents. And the last one I looked at, it does look as if 
the President's threat level has gone up slightly, but that's 
not unnatural, but it has gone up slightly.
    Mr. Jeffries. So the President's threat level has gone up 
to some degree, and at the same time over the last 6 years, 
we've seen security breach after security breach after security 
breach. I think that is a reason for us to be concerned, if not 
outraged, as it relates to the state of the Secret Service 
right now.
    Now, as it relates to the concerns that you've established 
upon your arrival, I think you mentioned three: staffing, 
training and morale. Is that correct?
    Mr. Clancy. That's correct, sir.
    Mr. Jeffries. And is it fair to say that the staffing 
issues that you confront relate to the fact that you don't have 
the budgetary resources necessary to operate at an optimal 
level?
    Mr. Clancy. Sir, I think our staffing levels from a budget 
perspective are appropriate at this time. One of the things we 
need to do to build our staffing is to better our hiring 
process. Right now, as I mentioned in an opening statement 
here, that it takes about 12 months for us to get people hired 
on, and we've got to do a better job of identifying good, 
quality people early on in the process so that we can 
streamline that process, maybe move that from 12 months to 7 
months, possibly shorter.
    First of all, there's still an incredible interest in the 
Secret Service. The last job announcement, I'm told, we had 
45,000 applicants, but only 72 of those applicants made it 
through the process and were hired.
    Mr. Jeffries. Now, if I can hone in on that point----
    Mr. Clancy. Yes, sir.
    Mr. Jeffries [continuing]. In terms of the interest in the 
Secret Service, connecting it to the morale problem that you've 
identified and that Members of this panel and other Members of 
the Congress have identified, you've got the Elite Presidential 
Protection Unit, correct?
    Mr. Clancy. Yes, sir.
    Mr. Jeffries. And that is generally viewed as sort of an 
optimal assignment within the Secret Service. Is that fair to 
say?
    Mr. Clancy. In my view, it is, yes, sir.
    Mr. Jeffries. And you demonstrated yourself to be an 
excellent leader of that unit during your time there, we're 
thankful for that.
    As it relates to the uniformed service division, there's a 
general perception amongst many observers of the Secret Service 
that that is viewed as a less than desirable assignment or on a 
cast system, perhaps some may say, as it relates to Secret 
Service hierarchy. Is that fair to say?
    Mr. Clancy. For the Uniformed Division?
    Mr. Jeffries. Yes.
    Mr. Clancy. That's a very challenging position, yes, sir. 
Those officers at the White House and the Vice-President's 
residence and our foreign missions, they have a very 
challenging position. I have great admiration for what they do, 
when you consider, as was mentioned here earlier, the number of 
people that come into the White House. We have over 300,000 
people that are screened coming through that White House every 
year, and these officers are confronted with a variety of 
issues, and I have great admiration for the work that they do 
there.
    Mr. Jeffries. Now, what can you do to sort of improve both 
the morale and the operational capacity, the ability, the 
competence of the Members of the uniformed Secret Service 
division, who play a very important role, and, of course, with 
the most recent incident that we saw in terms of the fence 
jumping episode, clearly did not perform at a level 
commensurate to what the American people, what the President, 
what the First Family deserve?
    Mr. Clancy. Yes, sir. Our people desire more training and 
they have a passion to get out to our Beltsville facility in 
Maryland for more training, and we've got to get them out there 
for that additional training. That's one thing that may help 
their morale.
    I think, additionally, we've got to do a better job of 
communicating and hearing their issues, and that's why we 
instituted the ombudsman and put more focus on the ombudsman 
and the anonymity of the concerns that could be sent to the 
ombudsman, because these officers want to be heard. And the 
ombudsman sits on my director's staff, so twice a week when I 
meet with the director's staff, the ombudsman will bring those 
issues to the table where I'm sitting. And, as much as we want 
to allow people to communicate up, we've got to communicate 
down as well, responses to these concerns, and I think that 
will help the morale of the uniformed officers, too.
    So training, better communication, I think will be a good 
start for helping the uniformed officers.
    Mr. Jeffries. Thank you. Yield back.
    Mr. Clancy. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Pennsylvania, Mr. Marino, for his 
questions.
    Mr. Marino. Thank you, Chairman. Director, it's a pleasure 
to be talking with you today. It's nice to have a fellow 
Pennsylvanian in the position as Director of the Secret 
Service. I've worked with the Secret Service for 18 years as a 
prosecutor, as a State and Federal prosecutor, and I have 
nothing but praise for the Secret Service. You have the best of 
the best, and I have personal experience there, so I thank the 
agents for their service. The President made the right choice 
putting you in this position. I can tell instantly from the way 
you answered several of these questions, the right choice of 
assigning you as a director. You have your hands full.
    There are some changes that have to be made, but I have 
complete confidence in you that you will square these issues 
away, improve security, improve morale, et cetera. I do believe 
that. I'm kind of old-fashioned. I think Secret Service should 
be with Treasury, not Homeland Security. I think there was a 
finer system of operation there, no disrespect to Homeland 
Security. They have their hands full in many other areas. And 
with that, I'm going to I yield back because many of my 
questions pertain to the second round, so thank you for being 
here.
    Mr. Clancy. Yes, sir. Thank you sir.
    Mr. Gowdy [presiding]. Thank the gentleman. If you will 
bear with me, I'll recognize the next person, Mr. Cicilline 
from Rhode Island. I apologize. Forgive me. Would the gentleman 
yield to the Ranking Member from Michigan?
    Mr. Cicilline. Of course.
    Mr. Gowdy. I would recognize the Ranking Member, Mr. 
Conyers.
    Mr. Conyers. Thank you both, and I apologize for my 
tardiness, and I, too, welcome Mr. Clancy.
    I wanted to raise a little discussion about the 10 people 
that have successfully climbed over the White House fence. Is 
there any thought yet about how we're going to repair this 
problem that keeps happening, replacement or a different 
design, or what are your thoughts as you sit here before the 
Judiciary Committee, sir?
    Mr. Clancy. Yes, sir. There's several levels to this, sir. 
The first is from our own operational standpoint to address 
what happened on September 19. We immediately instituted 
additional training and integrated training between the 
tactical units and our Uniformed Division officers, first with 
a 4-hour block of classroom work and then additionally a 6-hour 
block out at our Beltsville training facility where we would do 
a much better job and not allow what happened on September 19 
to occur again.
    But additionally there are some other things that we are 
looking at to include adjusting either the height of the fence 
or some modification to that fence. And again, we've worked 
very well with our partners at National Park Services. We've 
met with them already regarding this concern, and we're meeting 
in the very near future with the National Capitol Planning 
Commission and the Fine Arts Commission. And with those 
meetings, we think we're going to find some solutions to make 
it more difficult for people to get over that fence.
    Mr. Conyers. Thank you. Now, the Secret Service performs 
two huge missions: One, protecting the President, Vice 
President, their family and other dignitaries, but also 
investigating crimes against our financial system. Some have 
raised a question of whether Secret Service should maintain 
both missions and question whether the investigative mission 
reduces the effectiveness of the protective mission. Have you 
examined these issues yet?
    Mr. Clancy. Yes, sir. Thank you, sir. Let me just break it 
up. Uniformed division, the officers at the White House 
complex, are strictly there for protection. But on the agent 
side of the house, we do have very robust investigative field 
offices throughout the country. We think that is critical to 
our mission, our protective mission and our overall mission. 
But the work that our agents do in the field allows them to 
build skills from working the streets, doing interviews, 
situational awareness, those skills carry over into the 
protective mode so that you're much more attentive; you pay 
attention to your details, helps you with your advance work. 
There's a direct correlation between the investigative side of 
the house and the protection side.
    To include now with these cyber investigations where we've 
had great success investigatively, we use a lot of those people 
in our critical protection systems division which we use on 
protective movements. We've used them significantly with our 
national special security events. So that we see the 
correlation between the physical security of our sites as well 
as the cybersecurity.
    Mr. Conyers. Thank you. Let me ask you about the September 
19 incident. It revealed numerous problems with radio systems, 
alarm systems, officer training, physical attributes of the 
White House grounds, and officer performance. Do you have any 
way of determining, in your capacity as Acting Director, 
whether we have facilities and training to host full-scale 
drills to test the equipment so that we can be confident that 
it will not fail us in the future?
    Mr. Clancy. Sir, just as an example, with the Beltsville 
training that we've instituted just recently again for 
retraining, we sent our officers out there, and we've built a 
mockup of the White House grounds, so we have the proper 
distance from the north fence line to the north portico, but 
it's a mockup out at our Beltsville facility. Ideally in the 
future, we'd love to have a true replica of the White House so 
that our dogs can feel comfortable working in the true 
environment of what the north grounds are like. So that would 
be a long-term goal to get a mockup of the White House at our 
training facility.
    Mr. Conyers. Glad to hear you say that. I ask unanimous 
consent that my opening statement be included in the record, 
Mr. Chairman.
    Mr. Gowdy. Without objection.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary
    Today, the Committee will examine the operation of an agency that 
performs two vital missions for our country: the protection of the 
President and Vice President and other dignitaries, and the protection 
of our payment and financial systems.
    The Secret Service has done an outstanding job in many instances, 
with respect to both missions. The Secret Service helped protect the 
integrity of the nation's economy by closing over 7,000 criminal cases 
in Fiscal Year 2014, leading to approximately 6,700 arrests.
    This year alone, the agency's efforts in investigating financial 
crimes have saved us $3 billion. Cybercrime investigations prevented 
another $383 million in losses.
    With respect to the protection it provides the President, Vice 
President, and their families, there is no doubt that the determined 
and dedicated agents of the Secret Service have provided--and continue 
to provide--a tremendous service to the nation.
    However, in recent years, a number of incidents have shaken our 
trust in the agency, including lapses in protecting the President and 
the White House, and too many instances in which agents have engaged in 
misconduct while on presidential trips.
    Most notable is the failure, in September of this year, to prevent 
a man from climbing over the fence and running across the White House 
lawn into the White House, making it all the way to the East Room 
before he was apprehended.
    This incident demands that we change our approach to White House 
security, with lessons that should be applied to other aspects of 
presidential security as well.
    First, we must replace the current White House fence with one 
designed to make it far less likely that anyone may successfully climb 
over it. The current fence is not adequate.
    It is too low and of a design that allows for handholds that are 
used to propel climbers over the fence.
    While I understand that there may be historical considerations and 
concerns about how a more secure fence might look, I believe a new, 
more secure fence can be developed to afford greater protection while 
maintaining the dignity of the building and office it protects.
    Next, we must improve the plan and systems for securing the White 
House from attack from anyone who is able to successfully climb over 
the fence.
    When former Director Julia Pierson testified before the Committee 
on Oversight and Government Reform on September 30th, she indicated 
that the breakdown in protection in the September 19 fence jumper 
incident was a problem of implementation and not a problem of the 
adequacy of the protective plan. I disagree.
    Yes, the evidence shows specific lapses in performance and the use 
of various alarm systems on September 19--but it also points to a 
broader set of problems. I am concerned that the Secret Service has 
taken its protective plans and preparations for granted. It is clear 
that the equipment, planning, and training that are supposed to protect 
the White House are inadequate. All of these areas must be improved.
    Unfortunately, we only know that because their deficiencies were 
exposed by a man who eluded all the Uniform Division officers on post, 
the Emergency Response Team, and the canine unit on September 19th to 
make it all the way to the East Room.
    Finally, I believe it will be necessary for experts outside of the 
Secret Service to contribute to regular reviews of the security plans 
and operations that protect the White House.
    Secretary Johnson has appointed a panel of experts to make 
recommendations concerning the Secret Service and White House security 
on a one-time basis.
    However, I believe a similar group of experts should, perhaps on an 
annual basis, review the plans and operations related to the security 
of the White House complex.
    Two decades ago, the Delta Force of the U.S. Army evaluated White 
House security and made a number of recommendations. While I do not 
know whether these recommendations were good ones, I support the 
concept of experts from inside and perhaps outside the federal 
government providing security recommendations to the Secret Service.
    I have no doubt that the agency takes its critical, protective 
mission very seriously.
    However, the agency should not be alone in assessing the array of 
threats and types of attacks that could be attempted against the White 
House complex. We cannot expect that future threats will be as simple 
as one individual jumping over the fence.
    Our planning must involve thinking outside of the box. I fear that 
current planning and review has been too insular, even if undertaken by 
a dedicated agency with the best of intentions.
    I make these recommendations because we must improve the manner in 
which we protect our President, Vice President, and their families.
    This Committee has always afforded the Secret Service a high degree 
of respect and gratitude on a bipartisan basis. I trust that this will 
continue today and that this hearing will identify additional ways that 
a good agency may be strengthened so that it will do a better job at 
accomplishing its various missions.
                               __________

    Mr. Gowdy. I thank the gentleman from Michigan. The Chair 
would now recognize the gentleman from North Carolina, the 
former United States Attorney, Mr. Holding.
    Mr. Holding. Thank you, Mr. Chairman. Director Clancy, 
thank you for being here. I think it's very good that someone 
with a long history in the Secret Service is there to address 
these problems. Like my friend, Mr. Marino, I spent a long time 
working with the Secret Service and have nothing but the 
highest respect for all the Secret Service agents that I had 
the privilege of working with.
    Mr. Clancy. Thank you, sir.
    Mr. Holding. The Secret Service was always willing to jump 
into a task force and bring whatever resources that they have 
to the table. And how to multi task, it's always good when 
you've got a Secret Service agent working the case. They bring 
a lot to the table and pride themselves on always having the 
best prepared cases when they bring them to the U.S. Attorney's 
office and so forth.
    Picking up where Mr. Marino left off, it saddens me to hear 
the Secret Service is having such morale problems considering 
just the elevated reputation and stature of the Secret Service. 
And in talking to agents over the years, some think that the 
problems with morale started when the Secret Service was taken 
out of the Treasury and lumped together with a lot of other law 
enforcement agencies, all great agencies. I'm not deriding 
them, but, you have a breadth of experience. You were in the 
Secret Service when the Secret Service was in the Treasury 
Department. Take a moment and just reflect on that. Do you 
think that some of these problems started then, and if so, what 
have you thought about ways to address morale problems that may 
have started when the Secret Service left Treasury?
    Mr. Clancy. Yes, sir. When I was a younger agent and a 
younger manager in the Secret Service, we were under Treasury, 
but I didn't have a lot of exposure to those decisions at that 
time. So my true management experience has been with the 
Department of Homeland Security. To be candid, sir, the issues 
that we've had of late are really a reflection on some of the 
things we've done. We've got to fix our operational procedures, 
our conduct, and our morale. Obviously a concern, when I came 
back from the private sector and saw the reports on the morale 
issues, that was very concerning.
    So that's one of the top three areas I think we need to 
fix, and I'm committed to working on ways to fix that morale. 
And as I said earlier, I think training is one thing. We're 
going to have to build up the training. If we can get our folks 
trained, they're going to feel more confident in their actions 
every day; so that's one priority. The other is the 
communication. Our folks just want to be heard. They see 
things. They can see how we can be better. They've got good 
ideas out there. We want to hear their good ideas. If it's an 
idea that we cannot implement, we need to get word back to them 
and explain to them why we can't implement that idea that they 
had.
    The key here is communication. People want to be heard. My 
first day on the job here, I met with our senior staff and said 
that is one of the priorities we've got to have. We've got to 
communicate with all of our people, all of our agents, our 
officers, and our protective staff, and make sure that they're 
being heard and respected.
    Mr. Holding. Good. One other follow-up question. Then I'll 
I yield back. Regarding the security guard who was armed and 
hadn't been cleared. Were there any other security guards armed 
but not pinned at the event in Atlanta?
    Mr. Clancy. Sir, as I've been briefed, there were other 
security at the CDC, but they were not on the inner perimeter. 
They were on the outside of our inner perimeter which is not 
uncommon on the outside perimeter to have armed----
    Mr. Holding. So there were armed security who had not been 
cleared on the outside of the perimeter. Were there any on the 
inside of the perimeter like the individual that we've noted?
    Mr. Clancy. As I've been briefed, sir, not on the inside of 
the perimeter, other than the elevator operator was armed.
    Mr. Holding. Thank you. I yield back.
    Mr. Gowdy. I thank the gentleman from North Carolina. The 
Chair will now recognize Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you Mr. 
Clancy for being with us today.
    As you well understand, the protection of the President is 
a critical national responsibility, and I know that we all 
recognize that in many ways the work of the Secret Service, 
really our ability to defend our democracy, is directly tied to 
our ability to protect the occupant of the White House, whoever 
he or she is at any given time. These issues are serious, and I 
think we all appreciate the seriousness with which you are 
approaching these new responsibilities, and I thank you for 
being here to provide some testimony today.
    I just want to first focus on, you've made some reference 
to staffing levels have declined over the last several years 
while the workload of the agency has not. I'd like to hear from 
you whether or not, recognizing there are training and 
personnel and scheduling and communications issues that relate 
to each of the incidents we're reviewing in particular, are 
there more generally concerns you have about resources both at 
the staffing level and in terms of infrastructure, equipment, 
and the capacity you have to integrate new equipment as it 
becomes available?
    Mr. Clancy. Yes, sir. First with the staffing levels, we 
think we are appropriately funded for the staffing levels at 
this point. Our concern is getting people into our pipeline and 
getting them hired quicker so that we can build up our staffs. 
From an infrastructure standpoint, there are some things that 
we will be looking for additional funding. We've talked about 
the fence here today. Once we get good renderings, and once we 
get the approval, if we get the approval, from our partners in 
the National Capital region, that will be required, some 
additional funding for that.
    But also our communications, we'd like to update our 
communication systems. We saw that we had some failures on 
September 19, so our communications need to be upgraded. And 
then the Vice President's residence, we've got a lot of 
facilities that we protect. All of those are under constant 
review, and we always want to update our alarms and cameras, 
and that's the main focus.
    Mr. Cicilline. I was pleased to hear you say that with 
respect to additional training to be sure that agents are 
familiar with the grounds at the White House, that you have 
some expectations to make some requests for additional 
facilities at your training facility. But in addition to that, 
it seems as if staffing policies also played a role in the 
incident, particularly in the incident on September 19, and 
that agents being required to work overtime and many shifts in 
a row and that that obviously contributes to a general 
weariness and the way seniority plays a role in assignments. So 
can you speak to kind of what you will be doing or have already 
done to address the staffing issues to the extent that they are 
contributing to the kind of experiences?
    Mr. Clancy. Yes, sir. You bring up an excellent point, sir, 
regarding the staffing, particularly at the White House. We are 
making a review of our staffing in terms of experience at the 
White House. We want to make sure we have a good mix of 
experience as well as newer agents at the White House complex, 
and that review is ongoing now. We've already completed that 
review at our other branches of the Uniformed Division.
    Mr. Cicilline. Because it appears that sometimes the least 
experienced officers are being assigned the most important 
responsibilities. Isn't that what happens?
    Mr. Clancy. We may have an overabundance of junior officers 
on some shifts, and that's where we want to find that balance, 
to make sure that we've got good experienced, good mentors for 
those junior agents who may be on duty at the same time.
    Mr. Cicilline. And that's an issue you're examining 
currently?
    Mr. Clancy. Yes, sir.
    Mr. Cicilline. I should have started with this, and I'll 
end with this to say that I have enormous respect for the men 
and women of the Secret Service. I think they have always 
really represented the gold standard in many ways, and I'm very 
pleased that you have undertaken the responsibilities to 
address these deficiencies and to help raise the morale of this 
agency. It's essential because of the important work that they 
do, and obviously I think this Committee and this Congress will 
look to be a partner and support you in any way that you think 
is necessary to achieve that mission successfully. And with 
that I yield back.
    Mr. Clancy. Thank you, sir.
    Mr. Gowdy. Thank the gentleman from Rhode Island.
    Mr. Director, I want to start by also thanking you for your 
service. I hold law enforcement in very high esteem. In fact, I 
would be biased toward law enforcement. I think they have been 
given unique powers in our culture, and with those unique 
powers come correspondingly unique responsibilities. It's a 
difficult job, and it takes a different kind of person to be 
able to do that job. When I hear reports about alcohol abuse 
while you're either on the job or about to go on the job, and 
when I hear reports of sexual harassment of female agents or 
solicitation of prostitution, with all due respect, that just 
doesn't strike me as a training issue. That's a moral issue. 
That's a character issue. That's a recruitment issue. If you 
need to go to a seminar to learn at that stage of your career 
not to send sexually explicit texts to female agents, you have 
no business being in the Secret Service. There's a quote from 
the spokesperson: ``Periodically we have isolated incidents of 
misconduct, just like every organization does.'' But the Secret 
Service is not like every organization. That is not a defense 
to me. You guys are different.
    Mr. Clancy. Yes, sir.
    Mr. Gowdy. So from a recruitment standpoint, and we're 
going to get into jurisdiction in a second. But from a 
recruitment standpoint, are you getting the recruits you want? 
Are State and local law enforcement folks, men and women, 
applying? Are you getting folks with no experience? Talk to me 
about your recruitment.
    Mr. Clancy. Sir, we're getting a wide range of candidates 
in our recruitment, but one of the things that we feel, and in 
my short time here, is that through the USAJOBS we're getting a 
lot of applicants who may get moved on because they use the 
right words in that computer system. What we need to do is if 
any of our people know good quality people, people that have 
served in the military, people that have law enforcement 
experience, good quality people, get them to our field offices, 
get them an interview right away, and then get them into the 
hiring process. That's the way we used to do it, years ago. And 
we've got to get back to that where we can bring in good 
quality people up front.
    Mr. Gowdy. Well, I'm going to defer to your expertise. I'll 
probably have a different perspective on whether or not your 
jurisdiction should be as expansive as it is. Way back when the 
earth cooled, when I used to work with Secret Service, I never 
got the connection between investigating counterfeit $100 bills 
that were created on an ink printer, and protecting the life of 
the President or the Vice President or a judge. I would rather 
have a State or local law enforcement officer who used to do 
homicide cases or child sex assault cases.
    I watched ATF in the early 1990's kind of delve more toward 
Title 21 drug cases. Even though there was no D in ATF, they 
just found themselves matriculating toward drug cases. I just 
wonder if it wouldn't be in the Service's best interest to let 
the Marshals or the Bureau or somebody else handle some of 
these books of business and just focus on what really is 
incredibly important, which is protecting the life of our 
Commander in Chief and our judges and other important people. 
Why is that the not enough?
    Mr. Clancy. Sir, I appreciate your view. I would say 
additionally from my earlier statement that our field offices, 
in addition to the investigations they do regarding counterfeit 
and cyber crime and whatnot, they also do protective 
intelligence investigations, so if you're sitting in Kansas 
City or Texas and there's a threat made to the President, those 
same field office agents go out and do the investigation. So 
they've got those skills, and they've got to make judgements on 
is this someone who could potentially threaten or harm any of 
our protectees, so they learn those skills as well.
    Additionally, when our protectees travel, for example, the 
President travels to any city within the country, those same 
field offices, those agents who have already built up rapport 
with the locals and the county officers, that rapport has 
already been built through their investigations, and now we're 
going to rely on them to support us in a protective mission, in 
a perimeter that we set up, the middle perimeter, the outer 
perimeter; so those relationships are very strong, and we use 
that from a protective standpoint. They actually start the 
advance work. When the President goes to Kansas City, the 
beginning of that advance work is done by the field agent.
    Mr. Gowdy. You're the expert, and clearly I'm not. But I 
would, it's really tough for me to draw a connection between 
the investigation of financial crime and the investigation of 
counterfeiting and protecting the life of X. There may be 
categories of crime where that is a more natural, seamless 
transition. I just don't know. You're the boss and I'm not and 
never will be. There may be books of business that do prepare 
your agents. I just, I don't see that one. But I will say this, 
and I'll share with a colleague outside, for whatever reason we 
tend to have the person who's not responsible before us. The 
person who you could argue was responsible is no longer in that 
position, so I'm not going to expend my energy beating up on 
you. I do not understand not searching the White House when 
there is any evidence, even a scintilla of evidence of a 
shooting. I cannot understand not doing that. But it's not fair 
to you for me to ask you about that. It's not yours. So let the 
record reflect that I was fair at least on one occasion. And 
with that, I would recognize the gentlelady from Texas, Ms. 
Jackson Lee.
    Mr. Clancy. Thank you, sir.
    Ms. Jackson Lee. Mr. Chairman, thank you very much for 
yielding the time.
    This is a very serious hearing, and I'm grateful to the 
Judiciary Committee for its concern. I particularly want to 
thank Mr. Gowdy for his words as I associate myself, as I 
imagine every single Member of Congress does, and that is to 
recognize, first of all, the storied history of the Secret 
Service. Mr. Clancy, your name has certainly traveled through 
many Presidents' careers, and we thank you so very much for 
your sacrifice. As well, I associate myself with the concept 
that the most important responsibility, I believe, is the 
securing of the Commander in Chief, although you, by statute 
and otherwise, have added additional duties, and I think over 
the years you certainly have been engaged as a part of the 
Treasury before your coming into Homeland Security, and our 
Founding Fathers or fathers and later than that mothers, 
thought that was an appropriate role for you to be engaged. So 
obviously changes would require assessment and overhaul from 
many parties, including Members of the United States Congress. 
But I did want to put on the record that I thought that no one 
doubted the respect that we have for the Secret Service, and 
particularly for the important and crucial role that you have.
    As I recall, former Director Pierson was brought on to 
address the scandals and problems reported about the culture of 
the Service, and an independent review panel will issue a 
report in the near future. Just for the record, is that report 
coming soon?
    Mr. Clancy. Yes, ma'am. That report has been completed.
    Ms. Jackson Lee. And I'm not talking about the one that we 
received on Homeland Security. Is there another report coming?
    Mr. Clancy. The investigation of September 19 that was 
conducted by the Deputy of Homeland Security, that's completed. 
Now there's a Blue Ribbon panel by the Secretary that was set 
up, and my understanding is by December 15, it will be 
completed.
    Ms. Jackson Lee. All right. That's the one I'm asking for. 
I'm familiar with the Homeland Security. So December 15 we can 
expect that?
    Mr. Clancy. Yes.
    Ms. Jackson Lee. Because that ties in to the reason why 
Director Pierson was appointed, or at least, besides her 
competency; but the idea was that there were issues that needed 
to be addressed before. Is that correct?
    Mr. Clancy. That's correct.
    Ms. Jackson Lee. We also know that every Director has to 
address emerging threats and resolve staffing, morale problems, 
et cetera, and so I'm hoping this report will address that 
question.
    Just as an aside, and I'm going into some of the aspects of 
September 19, but just as an aside, we know that there are 
issues dealing with morale. I think you acknowledged that?
    Mr. Clancy. Yes, ma'am.
    Ms. Jackson Lee. Are you focusing on trying to address 
those questions?
    Mr. Clancy. Absolutely.
    Ms. Jackson Lee. And I note that a recent order or notice 
came out for female agents to wear their hair in a bun as 
opposed to any other kind of hairstyle. Can you tell me how 
that helps morale, and how is that relevant to caring for the 
principles that they have concern for?
    Mr. Clancy. I'm not familiar with that directive, but I 
will certainly go back after this hearing.
    Ms. Jackson Lee. Would you please check that, and I would 
appreciate a response back. And I would argue vigorously that 
that is inappropriate and certainly a contributor to low 
morale.
    Let me continue on. Who is responsible for overseeing the 
agency's disciplinary processes, ensuring employees are held 
accountable? Is the discipline consistent and appropriate 
across the workforce for similar violations? So the base of my 
question is, who is responsible, and is there an attempt to 
make sure that there's even-handed assessment of the 
discipline?
    Mr. Clancy. Yes, ma'am. As a result of the events of 
Cartagena and some of the other events, the Office of Integrity 
was set up by Director Pierson, so the purpose of the Office of 
Integrity is to have one central location where all discipline 
will be filtered into, and there a decision is made whether or 
not it's a criminal violation or whether it's a misconduct 
violation, et cetera. But what we wanted to make sure is that 
there is a consistency and a discipline that is effective. We 
have a table of penalties now that will ensure that there is 
consistency as we are confronted with these either operational 
errors or misconduct.
    Ms. Jackson Lee. Let me go to two incidences, and let me 
say that I have the greatest respect for the First Amendment 
and the greatest respect for the media that has every right to 
interpret and write articles, please to our broad third estate, 
know that I do that. But I do know that sometimes we have to 
get to the facts, so if the Chairman would indulge me, let me 
just get two facts on the table without any personal 
acknowledgement as to what is going to happen to the gentleman.
    Mr. Goodlatte. Without objection, the gentlewoman is 
recognized for one additional minute.
    Ms. Jackson Lee. I'm going to quickly say in one instance 
on the breach, a gentleman was on the phone, on a personal 
phone; earplug was not in their ear, and their walkie talkie 
was locked in their locker. One instance. Second instance is 
the gentleman on the elevator at the CDC who, as the story is 
told, was certified and authorized to be there with a gun, had 
secret clearance from the CDC, and was doing his job.
    The facts have come that the time that he took pictures was 
as he was waving good-bye to the Commander in Chief after he 
got in the car. Can you tell me how does that trickle up to, if 
you were at the time the Director, how does that trickle up? 
Those are incidences that I believe if it was you, I'd want to 
give you an opportunity to correct it, because those are 
incidences that with the best mind you couldn't imagine that 
happening. And the gentleman at the CDC was actually 
legitimately doing his job, certified, and just got a little 
star happy and took pictures. Why don't I yield to you and find 
out because I want to get to the point that we're not knocking 
off directors every 5 minutes because incidences happen that 
should have been taken care of by the immediate manager. Mr. 
Clancy?
    Mr. Clancy. Yes, ma'am. As far as the officer at the White 
House complex on the cell phone that's been reported by the 
investigation by the Deputy Secretary of Homeland Security. We 
waited for that report to be concluded, and we've forwarded the 
facts of that report on to our Office of Integrity, so that's 
under review now for any discipline that may be affected.
    Ms. Jackson Lee. That would be the responsibility of the 
special agent that was over that area, the White House.
    Mr. Clancy. It's actually the responsibility of this 
specific central Office of Integrity so that it's removed from 
his direct supervisor. The Office of Integrity will look at the 
facts, and they'll make a decision.
    Ms. Jackson Lee. But his actions were under his direct 
supervisor?
    Mr. Clancy. That's correct. Yes. In regards to the CDC 
events, that was fully investigated. It was actually self-
reported. The agent who saw that the individual in the elevator 
was armed, he self-reported that. Immediately we had an after 
action, we had a full inquiry, and those details are also sent 
to that Office of Integrity to determine what discipline, if 
any, should be administered.
    Mr. Goodlatte. Time of the gentlewoman has expired.
    Ms. Jackson Lee. I yield back. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
California, Mr. Issa, for his questions.
    Mr. Issa. Thank you. Director, I know we are going to go 
into a classified section, so I'm going to be brief. Two 
predecessors ago, we had a scandal. It turned out that this 
Committee, two other Committees, were never given the full 
facts. We then had subsequent revelations time and time again. 
During each of these, Committees of jurisdiction, including my 
other Committee, Oversight, endeavored to work with your people 
and Homeland Security to get the full facts. In each case, we 
did not get the full truth.
    Will you pledge today in all cases during your tenure to 
give us more, not less, and if there's something that may be 
relevant in even the most spurious way, at least make the 
staffs of the Committees of jurisdiction aware that there is 
something else that we may or may not want to pursue, at least 
in an in-camera format. Because without that, we're playing a 
game that I don't want to play, ever, and certainly not 
publicly, which is I ask; you answer. I ask another one to try 
to see if there's anything else. I don't want to ask publicly, 
and I don't think the Chairman wants to ask publicly or any of 
the rest of us, what it is you're not telling us.
    Mr. Clancy. Yes, sir. You have that commitment.
    Mr. Issa. Thank you. Secondly, and I'll end with this as 
quickly as I can. The term law enforcement sensitive is one 
that was recently used in, if you will, the two versions of 
this report. Now, our Committee, our other Committee, and I 
believe this Committee, got to look in-camera at the sensitive 
material. Do you know how Fox got what we were only allowed to 
look at in-camera to get it on the air? In other words, it was 
on camera while were still looking at it in-camera.
    Mr. Clancy. No, sir, I'm not aware.
    Mr. Issa. Will you pledge to see if you can find out, and 
if it came from the offices of the President or anyone else in 
the Administration, would you at least report back to us so 
that we know that there's two standards, the standards for the 
press when convenient, and the standards for Congress. Because 
I just have to share one thing with you. I have always felt 
that an in-camera review followed up with a discussion about 
what should be made available fully to the Committee and under 
what conditions is a reasonable middle ground. But if anything 
is withheld from Congress and asked to look at in-camera, by 
definition, I think it is fair to say you have, in fact, 
asserted a form of privilege, or at least the potential for a 
privilege or sensitivity or near classification, and that bars 
the Administration from willy-nilly releasing it to the press 
in order to get, if you will, either a positive spin or get 
ahead of a story. I hope you'll appreciate the sensitivity?
    Mr. Clancy. Yes, sir. Thank you, sir.
    Mr. Issa. So will you come back with any findings about how 
that got to Fox before it got to Chairman?
    Mr. Clancy. I will, sir. This is the first I'm hearing 
about that, yes, sir.
    Mr. Issa. Our staff over at oversight will be glad to share 
the detailed timeline with your people.
    Mr. Issa. Thank you, and I do yield back the balance of my 
time, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Florida, Mr. DeSantis, for his 
questions.
    Mr. DeSantis. Thank you, Mr. Chairman. Good morning, 
Director.
    Mr. Clancy. Good morning, sir.
    Mr. DeSantis. You've been frank about some of the 
incidences in response to the organization of Secret Service 
within DHS. You said, look, these are just mistakes that we 
made. You didn't necessarily attribute to that, and I 
appreciate it. But I do look, and I think it's important that 
we in Congress will conduct oversight of how agencies operate. 
We also have to conduct oversight over legislative products 
that we've done because you look at the history, Congress has 
created a lot of problems as well in various different areas. 
And I think moving the Secret Service to DHS is something that 
I've been thinking a lot about since these incidents have 
become more public, and I think we need to do further inquiry. 
You did mention that when the United Nations operation, 
protective operation, was undertaken that there was there was 
utilization of TSA and Coast Guard at the U.N., and I 
appreciate that, but if the Secret Service was in Treasury, you 
still would be able to liaison with other agencies. Correct?
    Mr. Clancy. That's correct, sir. Yes, sir.
    Mr. DeSantis. And being part of a bigger bureaucracy, does 
that make the Secret Service mission, is it conducted more 
efficiently as a result of that, or are there bureaucratic 
hurdles that the Secret Service has to deal with that they did 
not have to when they were part of Treasury?
    Mr. Clancy. Again, sir, it's difficult for me to compare 
the two because I wasn't in a management role under Treasury. I 
will say that the Department of Homeland Security is very 
inclusive. The Secretary had me up there several times to work 
with the other components and meet with the other components, 
so there's a good sharing of information.
    Mr. DeSantis. What about, you mentioned you wanted to hire 
and you're not doing that on the scale you want. Are you 
competing for more resources because you're within DHS? I would 
imagine there are all these different agencies that are being 
funded and that, and it seems like you would probably have less 
competition in that regard if you were still in Treasury. Is 
that accurate?
    Mr. Clancy. Again, it would be hard for me to evaluate and 
compare to Treasury. I know all the agencies and components in 
the Department of Homeland Security have very important 
missions, so we are all vying for those dollars, yes.
    Mr. DeSantis. I know you said you weren't in a management 
position, but I have retired Secret Service agents in my 
district. They've served in both capacities, pre-2003, and then 
after, and I think by and large I get negative feedback about 
the change. So just when you're talking with people, other 
agents who have kind of lived through this, is it something 
that you would say a substantial number of them have misgivings 
about?
    Mr. Clancy. Sir, I think when we have failures, and what 
we've had the last several years are really our failures.
    Mr. DeSantis. I understand and you've been frank about 
that. But I think we always have to look at how are we--we're 
legislating this stuff. We're funding these different agencies, 
and if we haven't done that in a way that best meets the needs 
of the American people, we always have to go back and evaluate. 
So I'm just curious, because I know there's some morale issues 
with the Secret Service. If you're just over the water cooler 
with people who have been in the Secret Service, is it going to 
be something that people look back and say, man, that was a 
great thing that Congress did by putting us in with DHS, or are 
you likely to hear people say, man, I liked it better when we 
were in Treasury?
    Mr. Clancy. Certainly some people have said that they liked 
our time in Treasury and had good memories of that time frame. 
But, again, I have to be focused on our agency and where our 
failures are and working with our people, and that's really my 
focus; and others can determine whether or not we're situated 
properly in the Department of Homeland Security, but I'm really 
focused on our operational needs.
    Mr. DeSantis. I understand. And as you should be, but we 
need to always look at this stuff. And it just seemed to me, 
and again, I'd like to do some more investigation in this. But 
with Treasury, obviously there's less bureaucracy, but actually 
for Congress it's good because I think we actually conduct 
better oversight that way. I think it would be easier. DHS has 
been problematic for us in terms of oversight of other 
functions other than the Secret Service. But anyways, I 
appreciate you stepping up to take this position. I know it's a 
tough job, and we wish you all the best, and I yield back the 
balance of my time.
    Mr. Issa. [presiding.] I thank the gentleman for yielding 
back the remainder of his time. We now go to the gentleman from 
Texas, from east Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank you, 
Director, for being here. We've had different hearings. 
Secretary of Homeland Security has been here a number of times. 
There seemed to be in the past a feeling of invulnerability of 
the White House, the fences, that somehow there was bound to be 
more security there than you see. So it rattles folks when 
somebody can jump over the fence and get there. Somebody else 
was saying, oh, I think there's two rows of fences. Isn't there 
just one row of fence around the White House?
    Mr. Clancy. Sir, as a result of September 19, on 
Pennsylvania Avenue on the sidewalk there, we've now put bike 
rack in addition to the permanent fence, realizing that people 
can still get over the bike rack, but what it does is it gives 
us a little more time to react, so there is bike rack in front 
of the original fence.
    Mr. Gohmert. How tall is the fence there? I'm not asking 
anything classified. You can go out there and measure it.
    Mr. Clancy. 7 feet 6 inches, I believe, sir.
    Mr. Gohmert. 7 feet 6 inches. Is there any thought about 
making it higher. Is it being discussed?
    Mr. Clancy. Yes, sir. It's being discussed, and we have 
been working very closely with the partners in the region. We 
have to work with the National Park Service, National Capital 
Region Planning Commission and the Fine Arts Commission. And we 
have already started those discussions to work together to see 
if there is something that is amenable to all the groups so 
that we keep the historic nature of the White House, but also 
increase the security measures at the House.
    Mr. Gohmert. I know this was before your time as Acting 
Director, but do you remember late 2009, there were the 
Christmas party crashers, the Salahis, that got in there, that 
were not on the list, and there was a hearing up here on the 
Hill about it. And it turned out that actually it wasn't so 
much the Secret Service's fault, that there was a social 
secretary of the White House who was always supposed to be 
there and if somebody's not on the list gives the ultimate yes 
or no and that she had told someone she didn't care about 
having to be the one to say no, and it left the Secret Service 
in a terrible bind. But what was obvious to those of us who 
would go over to the White House regularly was that it was all 
about appearances after the Christmas party crashers, that even 
though it really wasn't so much the Secret Service's fault as a 
breakdown in White House leadership, the Secret Service, who 
wore plain clothes, suits, were made to start wearing uniforms 
so that it looked like there was a lot more security there.
    And, in fact, we went from just having the one check point, 
you had to go through there at the southeast corner, to adding 
another there near the monument and then adding another down on 
15th Street.
    So pretty clearly it was all about appearance to make it 
look like, gee, it was the Secret Service's fault, and we've 
tripled those up, added a bunch of people there when really it 
wasn't necessary that any more need to be done other than just 
make sure White House gave proper direction. So my concern has 
been that there's been too much about appearances and not as 
much about actual protection. Has there been any thought to 
just eliminating the fence around the White House? Did 
Secretary Napolitano ever talk about that, maybe having a 
virtual fence or electronic fence? Has that been discussed at 
all?
    Mr. Clancy. Sir, I'm not aware of any discussions in that 
regard.
    Mr. Gohmert. Would you be in favor of removing the fence 
around the White House and having a virtual or electronic fence 
around it?
    Mr. Clancy. Sir, my knee jerk reaction to that would be no, 
sir, partly because of the number of tourists that come on 
Pennsylvania Avenue and come right up to that area and take 
pictures and whatnot.
    Mr. Gohmert. You know, the Secretary has said a number of 
times, Secretary Napolitano, the fence is worthless. You put a 
10-fence up, somebody is going to build a 12-foot ladder, so I 
would think that if the Administration is going to be 
consistent, it's now time to remove the fence from around the 
White House, because if it isn't good enough for our border, it 
shouldn't be good enough for the White House.
    So I would ask you to consider that consistency and also 
consider the fact that maybe there really is some real virtue 
in having a fence that slows people down, and with that I yield 
back.
    Mr. Issa. I thank the gentleman. And Director, as 
originally scheduled, we're going to take a short recess and 
give you a chance to maybe have just a short bite of lunch. Is 
12:30 okay to reconvene?
    Mr. Clancy. Yes, sir. That's perfect.
    Mr. Issa. Okay. We'll have the room made right, and we'll 
be back in at 12:30. We stand in recess.

    [Whereupon, at 11:51 a.m., the Committee was recessed, to 
    be reconvened in executive session.]

                                 <all>
</pre></body></html>
